 AUDIT OF THE INDEPENDENCE OF
CENTRAL ARTERY/TUNNEL PROJECT
   INSPECTION CONTRACTORS
     Federal Highway Administration

      Report Number: MH-2007-039
             March 27, 2007
U.S. Department of              The Inspector General        Office of Inspector General
Transportation                                                  Washington, DC 20590


Office of the Secretary
of Transportation

March 27, 2007

The Honorable Michael E. Capuano
Member, U.S. House of Representatives
Washington, D.C.

Dear Representative Capuano:

This report responds to your request that the Office of Inspector General (OIG)
review any independence concerns posed by contractors who were performing
recent remediation (repairs or retrofits) inspection work on the Boston Central
Artery/Tunnel (CA/T) Project.

In light of the tragic accident that occurred in one of the tunnels on July 10, 2006,
the Federal Highway Administration (FHWA) and OIG agreed that it was
imperative that safety reviews and remediation work be conducted independently
of contractors who performed the original work or oversight. This is necessary to
provide assurance to the driving public that the CA/T system is safe. In late
October 2006, media reports revealed that employees of the CA/T Project’s long-
time oversight contractor—a joint venture of Bechtel Corporation and Parsons
Brinckerhoff Quade & Douglas, Inc. (B/PB)—were conducting inspections of
remediation work.

On October 24, 2006, the Boston Herald reported that a few employees of B/PB
had been conducting daily field inspections of remediation work inside the I-90
connector tunnel. The tunnel was closed to traffic after the ceiling collapse,
pending safety reviews and remediation work to address any problems that may
have been identified during these reviews. The involvement of B/PB employees
in such work could undermine the public’s confidence that the Commonwealth’s
efforts to ensure the safety of the tunnels were truly independent. The then-
Massachusetts Secretary of Transportation ordered B/PB employees to be
removed from inspections or remediation work. Similar questions about
independence arose regarding two other firms that were involved in remediation
inspection work-Keville Enterprises and HNTB Corporation (HNTB).

Based on the results of our reviews, which we have enclosed, we have concluded
that contractors with potential independence issues have been removed from C N T
remediation work and that the Commonwealth has sufficiently mitigated any risks.
According to Commonwealth documentation, seven BIPB employees had been
conducting inspections before the Commonwealth directed them to stop on
October 24, 2006, and these employees were removed from remediation work.
We confirmed that the Commonwealth performed 193 re-inspections on the work
of the seven B P B employees. We reviewed a sample of 30 re-inspections that the
Commonwealth conducted, and found that the Commonwealth followed its re-
inspection procedures for all 30 cases. After reviewing this sample, we concluded
that the Commonwealth sufficiently mitigated the risks posed by BPB's
involvement in earlier remediation work. We informed FHWA and
Commonwealth officials of the results of our review. FHWA informed us that, in
conducting its own assessment, it was also satisfied with the Commonwealth's
efforts to deal with any independence concerns.

Accordingly, based on the interviews we conducted and the documentation we
reviewed, we concluded that the Commonwealth took sufficient steps to mitigate
any risks posed by BPB's prior inspection work. In addition, we concluded that
the Commonwealth has taken sufficient steps to evaluate whether or not other
contractors, such as Keville Enterprises and HNTB, may lack sufficient
independence due to previous involvement in the design or construction of the
C N T Project.

If I can answer any questions or be of further assistance on this matter, please feel
fiee to call me at (202) 366-1 959, or my Deputy, Todd Zinser, at (202) 366-6767.

Sincerely,




Calvin L. Scovel I11
Inspector General

Enclosure (Report Number MH-2007-039)

cc:    James Ray, Chief Counsel, FHWA
            AUDIT OF THE INDEPENDENCE OF
           CENTRAL ARTERY/TUNNEL PROJECT
              INSPECTION CONTRACTORS
                     (Report No. MH-2007-039)

                        Table of Contents

Transmittal Letter

Introduction……………………………………………..………………………2

Results…………………………………………………..……………………….3

Conclusion……………………………………………..………………………..6

Exhibit A: Summary Matrix of Actions Taken by Massachusetts and
OIG Activities to Address Them……………………………………………..7

Exhibit B: Inspection Contractors’ Involvement in Remediation
Work…………………………………………………..…………………………11

Exhibit C: Objectives, Scope, and Methodology.…….…………………13

Exhibit D: Major Contributors to This Report……………………………15
                                                                                                       2

Independence of Central Artery/Tunnel Project
Inspection Contractors
(Report No. MH-2007-039)

Introduction

Since the July 10, 2006 collapse of overhead panels in one of the Boston Central
Artery/Tunnel (CA/T) Project tunnels, which killed a motorist, the
Commonwealth of Massachusetts (the Commonwealth) has been conducting a
series of safety reviews and remediation work to correct any deficiencies
identified during the reviews. 1 As a result of the tunnel ceiling collapse and the
resulting fatality, portions of the CA/T Project were closed to traffic and the
Commonwealth and the Federal Highway Administration (FHWA) agreed to an 8-
stage reopening process. FHWA is the Federal agency responsible for overseeing
the CA/T Project and the Office of Inspector General (OIG) has been providing
independent oversight of the reopenings at the request of the Massachusetts U.S.
congressional delegation and the U.S. Secretary of Transportation. We have also
been providing oversight to the Commonwealth’s more comprehensive “Stem to
Stern” review. Also, in December 2006, the National Transportation Safety Board
Reauthorization Act of 2006 (Public Law No. 109-443) directed OIG to provide
oversight related to the CA/T Project.

It is imperative that, going forward, CA/T Project safety reviews and remediation
activities are conducted in a rigorous and independent manner to restore public
confidence and ensure the safety of drivers who use the reopened tunnels.
Accordingly, contractors including the main joint venture Bechtel Corp. and
Parsons Brinckerhoff Quade & Douglas, Inc. (B/PB) who were previously
involved in the design and oversight of the I-90 tunnels, which require
remediation, should not play a role in the remediation work or inspections related
to the reopening process.

On October 24, 2006, the Boston Herald reported that a few employees of B/PB
had been conducting daily field inspections of remediation work inside the I-90
connector tunnel. Based on our review, we determined that the B/PB employees
had apparently been used to supplement Commonwealth inspectors. At that time,
the Massachusetts Governor’s office stated that it had previously directed the
Commonwealth’s Executive Office of Transportation (EOT) to ensure that B/PB
would have no involvement in either the I-90 connector remediation work or the
more comprehensive “Stem to Stern” safety review. On October 24, 2006, the

1
    The Commonwealth of Massachusetts tunnel safety reviews and remediation work is being directed by
    the Executive Office of Transportation (EOT) with the support of employees and contractors managed by
    the Massachusetts Highway Department (MHD), which is part of EOT.
                                                                                                        3

Massachusetts Secretary of Transportation publicly announced that B/PB’s
involvement in the remediation was an inadvertent oversight and that he ended
B/PB’s involvement.

After October 24, 2006, Commonwealth officials informed us that they reviewed
B/PB’s involvement in tunnel remediation and conducted new inspections of any
remediation work that B/PB initially inspected (the remediation work itself was
performed by other firms). Further questions arose regarding the independence of
two additional firms that the Commonwealth was using in the CA/T Project
remediation—Keville Enterprises and HNTB Corporation (HNTB). According to
Commonwealth officials, they vetted and cleared other contractors working on
remediation to ensure that these firms did not lack independence due to any
previous involvement with any I-90 work.

In conducting the audit, we reviewed documentation provided by Commonwealth
officials.    We also conducted interviews with officials from EOT, the
Massachusetts Highway Department, the Massachusetts Turnpike Authority,
B/PB, Keville Enterprises, and the National Transportation Safety Board. Exhibit
A details our analysis of the involvement of B/PB, Keville Enterprises, and HNTB
in the I-90 remediation work. Exhibit B provides an overview of other contractors
that are involved in inspection work. We conducted our performance audit work
from October through December 2006 in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States. Exhibit C details our objectives, scope, and methodology.

RESULTS

Bechtel Corporation and Parsons Brinckerhoff Quade & Douglas, Inc.
Employees Have Been Removed from the CA/T Project Remediation
Work

According to Commonwealth documentation, seven B/PB employees were
conducting inspection activities before B/PB was directed to stop on October 24,
2006. The records also show that the Commonwealth removed these employees
from remediation work by that same date. The Commonwealth identified 193
inspections that required an independent re-inspection.2 The initial inspections in
question were conducted between September 21, 2006 and October 24, 2006, the
date of B/PB’s removal from remediation work. Between September 21st and
October 24th, the seven B/PB employees were used to supplement the
Commonwealth’s other inspection staff. The Commonwealth was relying on
inspections performed by seven B/PB employees during this period of time. They

2
    Exhibit A provides additional details about the Commonwealth’s inspection process and procedures.
                                                                                 4

were tasked to conduct inspections on their own and not as part of inspection
teams using Commonwealth employees. The Commonwealth reported to us that,
after October 24th, it conducted independent re-inspections on all of B/PB’s 193
inspections.

The Commonwealth removed the B/PB employees in question to ensure that no
B/PB employees continued to conduct inspection work. In addition to reviewing
the Commonwealth’s re-inspection records, we interviewed four of the seven
B/PB employees to verify the Commonwealth’s claims that these employees were
no longer conducting inspections.

Commonwealth officials identified a total of 193 B/PB inspections that required a
re-inspection. We obtained the Commonwealth’s list of the 193 inspections and
reviewed in detail a sample of 30 B/PB inspections to verify that re-inspection
forms were completed properly. Our review determined that the Commonwealth’s
re-inspection procedures were followed in these 30 cases. Accordingly, based on
the documentation we reviewed and our interviews, we concluded that the
Commonwealth took sufficient steps to evaluate B/PB’s work, thereby mitigating
potential risks posed by B/PB’s involvement in remediation.

The Commonwealth also decided to remove an additional 63 B/PB employees
who were performing mostly administrative duties. For example, some of these
employees were classified under categories such as traffic support and secretarial.
The Commonwealth identified these 63 employees by reviewing joint venture
billing records to determine who had charged the CA/T Project for remediation–
related work. According to the Commonwealth, removing all B/PB employees
from any remediation-related work was justified to further avoid the appearance
that the remediation work lacked independence from the contractors responsible
for the design and construction of the I-90 tunnels. During the period of July 16,
through October 22, 2006, the Commonwealth reported that approximately $1.2
million was invoiced by B/PB for staff that worked on remediation-related
activities, which includes the 63 administrative employees and seven inspectors.

We interviewed 17 of the 63 B/PB employees and determined that their
responsibilities matched the documentation provided by the Commonwealth and
that they had been removed from any remediation-related duties. We also
assessed whether any B/PB administrative staff had performed any duties that
would have precipitated the need for re-inspections. Based on the documentation
we reviewed and our interviews, we concluded that the Commonwealth took
sufficient steps to ensure that B/PB employees were removed from any
remediation-related activities and no additional re-inspections were required.
                                                                                 5

Other Contractors with Independence Concerns Have Been
Sufficiently Vetted or Removed from Remediation Inspection Work

Questions were also raised regarding the independence of two other contractors
that had been involved in the CA/T Project remediation inspection work─Keville
Enterprises and HNTB Corporation. First, 27 Keville Enterprise employees
conducted remediation-related inspections and other technical support for the
Commonwealth. This presented a potential independence concern because Keville
previously had a subcontractor relationship with B/PB on the CA/T Project.

In reviewing Keville’s independence, Commonwealth officials told us that they
took the following facts into consideration: 1) Keville was not a partner in the
B/PB joint venture; 2) at the time the Commonwealth was using these inspectors,
Keville was not in a subcontractor relationship with B/PB; and 3) Keville was
sufficiently independent in this case, because none of the Keville inspectors had
previously been involved with oversight of the I-90 tunnel panels.

The Commonwealth provided us a list of the Keville employees assigned to
inspection work, which we verified with Keville officials. Further, we interviewed
several members of the Keville staff to verify their role and employment history
on the CA/T Project. Based on our review and interviews, we determined that
these employees were sufficiently independent. Nonetheless, on October 26,
2006, Commonwealth officials removed Keville inspectors from remediation work
to avoid any appearance of a lack of independence due to the firm’s previous
involvement in the CA/T Project.

Second, although HNTB performed remediation-related inspections and other
technical support on I-90, the Commonwealth concluded that the work of the
seven HNTB employees in question was sufficiently independent because HNTB
did not previously perform work on the I-90 tunnel ceiling system. Specifically,
Gannett Fleming used a ceiling panel design in the I-90 tunnel that HNTB
developed for the I-93 tunnel, but HNTB was not involved in the I-90 work. To
verify the Commonwealth’s claims, we also consulted with the National
Transportation Safety Board (NTSB), which is conducting an independent
investigation of the July 10, 2006 tunnel incident in which a passenger was killed.
We confirmed that B/PB and Gannett Fleming were the firms involved in the I-90
tunnel work—not HNTB. Further, B/PB and its subcontractor, Gannett Fleming,
revised parts of HNTB’s panel design and Gannett Fleming independently
designed all of the hanger systems for the I-90 connector tunnels. Accordingly,
we concluded that HNTB did not have any independence issues in working on I-
90 remediation.
                                                                                 6

Remaining Contractors Conducting Inspections Have Been Vetted
and Cleared to Ensure Their Independence

Several firms, aside from B/PB, Keville and HNTB, have been involved in
remediation work. The Commonwealth is using the following design and
inspection     consultants─TranSystems;       Transportation    Engineering     and
Construction, Inc.; Charles H. Sells, Inc.; Diversified Technology Consultants; and
Purcell Associates. According to the Commonwealth, these contractors have been
vetted to ensure they had no significant prior involvement in the I-90 tunnel. To
ensure their independence, the Commonwealth requested that each firm provide,
in writing, (1) involvement with the design or construction of the CA/T Project
before July 10, 2006; (2) contractual agreements with B/PB; and (3) names of
employees involved in the remediation who were previously employed by B/PB,
any B/PB subconsultants on the CA/T Project, or any section design consultants
on the CA/T Project. The Commonwealth obtained and reviewed the requested
information along with each firm’s written assurance that it had no conflicts of
interest in conducting remediation work.

Although no questions had been raised as to the independence of these five firms,
we interviewed Commonwealth officials to assess their vetting and clearance
process, and reviewed the engineering firms’ written assertions and responses to
MHD’s follow-up questions. Based on the results of our interviews and document
reviews, we determined that the Commonwealth performed due diligence in
assessing these firms’ independence. Exhibit B provides additional information
on the current involvement of these firms in I-90 remediation work and the vetting
process.

CONCLUSION

We informed FHWA of the results of our review and provided them with a draft
of our report. FHWA informed us that, based on its own review, it was satisfied
with the corrective actions taken by the Commonwealth. We make no
recommendations to FHWA and accordingly no reply is required.
EXHIBIT A: SUMMARY MATRIX OF ACTIONS REPORTED BY MASSACHUSETTS AND OIG                                                                                   7
ACTIVITIES TO ADDRESS THEM
Firm

No. of
Employees
with Potential
Independence
Concerns
                 Activity Performed                Mitigation Actions Taken by the Commonwealth of Massachusetts
Bechtel/         Inspected the two hanger          • The Commonwealth removed B/PB inspectors from remediation work on October 24, 2006.
Parsons          systems: the new Hilti bolt
                                                   • The Massachusetts Highway Department (MHD) identified 193 inspections performed by B/PB
Brinckerhoff     system and the existing
                                                       employees from September 21st through October 24th that required an independent reinspection. (Any
                 Unistrut hanger system on I-
                                                       B/PB inspections performed before September 21 were redundant and not relied upon because MHD
Quade &          90 Westbound and Ramp D
                                                       performed independent inspections using its own employees.) See the note at the end of this table for
Douglas, Inc.    tunnels
                                                       more information on the 193 inspections.
                                                   • MHD created a spreadsheet detailing the 193 inspections, which we obtained.
(B/PB)
                                                   • MHD conducted re-inspections of the Unistrut and Hilti system brackets and identified prior
                                                       independent load tests for Hilti bolts.
                 1. Hilti Bolt System
                                                   • We interviewed the MHD Chief Engineer, the MHD Director of Construction, the Massachusetts
                                                       Turnpike Authority Chief of Staff, and the CA/T Project Director regarding the State’s contract with
7 Inspectors     •   Completed an inspection
                                                       B/PB and the process they used to identify potentially compromised inspections.
                     form while observing:
                 •   Drilling of holes for bolts   • We examined the MHD’s spreadsheet of the initial 193 inspections. We also obtained and reviewed a
                     Installation of Hilti bolts       summary of B/PB billings for remedial work as additional verification.
                 •   Load tests (also reported     • We interviewed 4 of the 7 B/PB inspectors to independently verify the number of inspections listed by
5 full time                                            MHD and to confirm that B/PB is no longer involved in tunnel remediation work.
                     by an independent pull-
                     test firm)                    • Based on our review, we concluded that the Commonwealth’s process provided sufficient assurance that
2 part time      •   Bracket installation              B/PB inspectors were taken off the job and inspections performed solely by B/PB employees were
                 •   Torque setting of first nut       selected for re-inspection.
                 •   Tightening of second nut      • MHD examined all inspection forms and identified the specific inspections conducted after September
                                                       21 by the seven B/PB inspectors. MHD identified a total of 193 inspections performed by B/PB
                                                       inspectors.
                                                   • MHD reported that it had completed a re-inspection process for each of the 193 B/PB inspections.
EXHIBIT A: SUMMARY MATRIX OF ACTIONS REPORTED BY MASSACHUSETTS AND OIG                                                                                      8
ACTIVITIES TO ADDRESS THEM (Cont.)

Firm

No. of
Employees
with Potential
Independence
Concerns         Activity Performed                Mitigation Actions Taken by the Commonwealth of Massachusetts
                 2. Unistrut System                •   We obtained a list of the 193 initial inspections from which we selected a sample of 30 inspections and
                                                       corresponding re-inspection records for review. We then analyzed the re-inspection forms to ensure that
                 •   Completed an inspection           the associated records were complete and accurate. We found no significant problems. We also
                     form while observing:             interviewed the MHD Chief Engineer to obtain further clarification of the re-inspection process.
                 •   Disassembly of old            • Based on our review and interviews, we concluded that MHD’s documentation of the re-inspections is
                     bracket                           complete and it took sufficient steps to re-inspect B/PB’s work, thereby mitigating any potential risk
                 •   Checking the Unistrut for         related to B/PB’s prior involvement in tunnel remediation work.
                     damage
                 •   Checking bracket for
                     damage
                 •   Replacement of existing
                     or new bracket and new
                     spring nuts
                 •   Replacement of new bolts
                 •   Use of metal shims, if
                     needed
                 •   Torque setting of bolts

B/PB             After the July 2006 tunnel        •   Based on OIG discussions with Commonwealth transportation officials, we learned that, in addition to
                 ceiling collapse, B/PB assisted       removing the 7 inspectors, the Commonwealth also removed all 63 B/PB employees from any
                 the Commonwealth with                 remediation related work on October 24, 2006.
                 technical support, electric
                                                   •   The Commonwealth reported to us that it conducted its own inspections before September 21; therefore,
63 employees     support (electrical shutdown
                                                       any B/PB inspections before that date were not used by the Commonwealth for any of the phased
                 and identification of
with multiple                                          openings. MHD re-inspected all 193 B/PB inspections conducted after September 21.
job titles       embedded conduits),
                 procurement support, safety       •   B/PB employees had performed administrative and technical support to assist MHD’s tunnel evaluation.
related to                                             The Commonwealth supplied OIG with a list of all B/PB workers based on hours billed by B/PB from
                 monitoring, mechanical
technical and                                          pay periods ended July 16 through October 22, 2006, which we reviewed.
administrative   engineering, and ceiling
EXHIBIT A: SUMMARY MATRIX OF ACTIONS REPORTED BY MASSACHUSETTS AND OIG                                                                                         9
ACTIVITIES TO ADDRESS THEM (Cont.)

Firm

No. of
Employees
with Potential
Independence
Concerns         Activity Performed                Mitigation Actions Taken by the Commonwealth of Massachusetts
support.         condition inspections after the   •   We interviewed 17 of the 63 B/PB employees to independently verify their roles.
                 accident.
                                                   •   Based on our review, we concluded that the Commonwealth removed all B/PB staff from the tunnel
                                                       remediation program as officials had stated, thereby mitigating questions about their independence in
                                                       working on remediation activities.

Keville          Keville employees provided        •   Based on OIG discussions with Commonwealth transportation officials, we learned that Keville
Enterprises,     some tunnel remediation               Enterprises was a sub-consultant to B/PB prior to the July 10, 2006 accident.
Inc.             inspections and technical
                                                   •   The Commonwealth took the position that the Keville staff had no independence concerns because the
                 support to MHD.
                                                       assigned inspectors did not have a prior role in the I-90 tunnel connector system.
7 Inspectors
                                                   •   We requested EOT to provide a listing of Keville staff assigned to tunnel remediation work.
20 other
                                                   •   We contacted Keville officials directly to verify the names of listed staff. We also requested
                                                       information to confirm that Keville employees assigned to tunnel inspections did not previously work on
employees
                                                       I-90 tunnel ceiling inspections.
                                                   •   We also interviewed of 5 of the 27 Keville staff to verify that they did not have a prior role in the
                                                       inspection of I-90 tunnel panel installations.
                                                   •   On October 26, 2006, the Commonwealth removed Keville inspectors from the tunnel remediation
                                                       program to avoid any potential questions about the firm’s independence.

HNTB             HNTB employees conducted          •   Based on OIG discussions with Commonwealth officials, we learned that EOT has taken the position
Corporation      tunnel remediation inspections        that the HNTB staff was independent because the assigned inspectors did not have a prior role in the I-90
                 and provided technical support        tunnel connector system.
                 to MHD.
(HNTB)                                             •   We verified that Gannett Fleming used the panel design developed by HNTB for I-93; however, B/PB
                                                       and Gannett Fleming revised parts of the panel design and independently designed all hanger systems for
                                                       I-90. Thus, HNTB was not involved in the original I-90 work.
                                                   •   Based on our review, we concluded that HNTB does not have independence concerns because HNTB
7 employees
EXHIBIT A: SUMMARY MATRIX OF ACTIONS REPORTED BY MASSACHUSETTS AND OIG                                                10
ACTIVITIES TO ADDRESS THEM (Cont.)

Firm

No. of
Employees
with Potential
Independence
Concerns         Activity Performed   Mitigation Actions Taken by the Commonwealth of Massachusetts
                                          did not contract for any part of the original I-90 tunnel connector work.
EXHIBIT B: OTHER INSPECTION CONTRACTORS’ INVOLVEMENT IN REMEDIATION WORK                                                                                              11

                                                                                                                                                          Accepted by the
                                                                                                                                                          Commonwealth
  Firms                          Responsibilities                           Assessment1                                                                   as Being
                                                                                                                                                          Independent
  TranSystems                    Designing all remedial ceiling hanger      Assertions on all three criteria support the firm’s independence.                   Yes
                                 connections, excluding I-90 Tunnel
                                 Connector Eastbound temporary shoring
                                 towers.


  Transportation                 Designing temporary shoring in the I-90    Four TEC staff members were previously involved with the Central                    Yes
  Engineering and                Tunnel Connector Eastbound and             Artery/Ted Williams Tunnel (CA/T) Project design for the Leverett Circle-
  Construction, Inc. (TEC)       temporary jet fan supports for Ramps A     Storrow Drive Connector. However, its staff was not involved with the
                                 and F.                                     design of the I-90 Connector Tunnels.

                                                                            Assertions on all three criteria and above review of prior participation on
                                                                            the CA/T project support the firm’s independence.


  Chas. H. Sells, Inc. (Sells)   Performing    Level    1     inspections   Sells performed some aerial mapping for work on the Boston Survey                   Yes
                                 throughout the I-90 Connector Tunnels      Company in the early 1990s that included the CA/T Project. Also, one Sells
                                 and the Ted Williams Tunnel.2              employee had limited experience on the project related to loop ramps north
                                                                            of the Charles River, Fort Point Channel (exclusive of design of tunnel
                                                                            finishes), and in administrative duties. However, Sells staff was not
                                                                            involved with the design of the I-90 Connector Tunnels.

                                                                            Assertions on all three criteria and above review of prior participation on
                                                                            the CA/T project support the firm’s independence.


  Diversified Technology         Performing     Level    1    inspections   One DTC engineer performed minimal design support work on the CA/T                  Yes
  Consultants                    throughout the I-90 Connector Tunnels.2    project. He was involved with temporary excavation support design
                                                                            criteria, inspection and repair design for wall leakage, and collection as-
                                                                            constructed details for atypical tunnel finish and platform areas. However,
                                                                            the DTC engineer was not involved with the design of the I-90 Connector
EXHIBIT B: OTHER INSPECTION CONTRACTORS’ INVOLVEMENT IN REMEDIATION WORK                                                                                              12
(Cont.)

                                                                                                                                                          Accepted by the
                                                                                                                                                          Commonwealth
      Firms                      Responsibilities                           Assessment1                                                                   as Being
                                                                                                                                                          Independent
                                                                            Tunnels.

                                                                            Assertions on all three criteria and above review of prior participation on
                                                                            the CA/T project support the firm’s independence.
      Purcell Associates         Performing    Level    1     inspections   Two engineers worked for section design consultants on other areas of the           Yes
                                 throughout the I-90 Connector Tunnels      CA/T Project. The engineers worked on the bridges at Massachusetts Ave.
                                 and the Ted Williams Tunnel.2              interchange, pavement quantity calculations, and traffic management
                                                                            schemes. However, the Purcell engineers were not involved with the
                                                                            design of the I-90 Connector Tunnels.

                                                                            Assertions on all three criteria and above review of prior participation on
                                                                            the CA/T Project support the firm’s independence.

Note 1:
To ensure independence, the Commonwealth asked each of the above design and inspection firms to disclose in writing the following and to clearly define each
item of disclosure (assertion criteria):

1.   Prior involvement (before July 10, 2006) with the design or construction of the Central Artery/Ted Williams Tunnel (CA/T) Project;
2.   Contractual agreements with Bechtel Corporation and Parsons, Brinckerhoff, Quade & Douglas, Inc.; and
3.   Individual employees involved in the remediation who were previously employed by Bechtel Corporation; Parsons, Brinckerhoff, Quade & Douglas, Inc.; a
     Bechtel/Parsons Brinckerhoff subconsultant on the CA/T Project; or a Section Design Consultant on the CA/T Project.

Note 2:
A Level 1 inspection is a safety review of the entire tunnel covering all elements, including ceiling and hangers, suspended lights, signs, pipes, Integrated Project
Control System (IPCS) equipment, as well as elements around the roadway.
EXHIBIT C: OBJECTIVES, SCOPE, AND METHODOLOGY                                    13

We performed this performance audit from October 2006 through December 2006.
It was conducted in accordance with Generally Accepted Government Auditing
Standards as prescribed by the Comptroller General of the United States. The
objective of this audit was to determine what actions the Commonwealth of
Massachusetts took to identify and remove any contractors that lacked
independence in performing CA/T Project inspection duties. We conducted audit
procedures that were considered necessary to achieve this audit objective. In
addition, we evaluated the Commonwealth’s efforts to mitigate any risks posed by
prior remediation work performed by firms that may lack sufficient independence.
Due to the specificity of the audit objective and the ongoing CA/T Project criminal
and civil investigations by Federal and state agencies, we did not perform audit
procedures designed to evaluate potential internal control deficiencies, fraudulent
and illegal acts, and violations of contract provisions.
In carrying out this audit we obtained relevant documentation from the
Commonwealth, such as inspection reports. We also interviewed officials from
EOT, MHD, and the CA/T Project. We evaluated the process EOT used to ensure
the independence of contractors that have continued to work on the I-90 tunnel
remediation design and inspection work since October 2006.
In order to further evaluate the independence of the inspection firms we conducted
interviews with B/PB and Keville Enterprise employees to determine their current
and prior relationship with the CA/T Project. We also analyzed the written
representations provided by other firms with regard to their independence.
Additionally, we assessed the remedial actions the Commonwealth took to correct
any non-compliant services provided by B/PB related to the planned phased
openings in the I-90 tunnels. We identified the rework steps that the
Commonwealth used on the tunnel brackets, and identified and assessed the
corrective steps taken.

The Commonwealth’s remediation work involved inspections of the installation of
ceiling hanger brackets that were fastened (1) to the Unistrut or (2) with new Hilti
anchors. In the case of the Unistrut system, one or more inspections with several
installation steps (installing multiple spring nuts, attaching the base plate, and
torquing the bolts) were recorded on a single inspection report form. In the case of
installing the new Hilti anchor system, a separate inspection was performed for
each step, which included each hole drilling, each bolt installation, each load test,
and the attachment of a new base plate bracket. As a result, the Hilti
system would involve 13 inspection reports for each installation. All of the
Unistrut system installations inspected by B/PB were subjected to a re-inspection.
However, per MHD’s re-inspection procedures of B/PB work, only the Hilti load
test results and the base plate installation were subjected to a re-inspection. MHD
                                                                                14

determined that if the existing Hilti system installations were disassembled, it
would have required new Hilti anchors, nuts, and washers; and each anchor would
have to be load tested once again. Further, the initial installation of these Hilti
systems were put through load tests conducted by an independent testing firm.
Successful load tests provide assurance that the mechanical anchors, which are
embedded into the ceiling and are unique to the Hilti system, were fastened
properly. Therefore, MHD determined that it would limit its re-inspection efforts
to the external, non-imbedded components and/or verifying that the initial load test
had been successfully performed by the independent testing firm. Based on its re-
inspection procedures, MHD identified 193 total instances that required a re-
inspection (138 Unistrut and 55 Hilti)

We selected and analyed a sample of 30 B/PB inspections from the 193
inspections that MHD identified as requiring remedial work and determined
whether each had received corrective actions.
EXHIBIT D: MAJOR CONTRIBUTORS TO THIS REPORT            15

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                             Title

  Thomas Yatsco                    Program Director

  Peter F. Babachicos              Project Manager

  John M. Hannon                   Senior Analyst

  William R. Lovett                Senior Auditor

  Paul D. McBride                  Analyst
